No. 20-107
IN THE

Supreme Court of the United States

d

CEDAR POINT NURSERY and FOWLER PACKING COMPANY, INC .,
Petitioners,
—v.—
VICTORIA HASID , in her official capacity as Chair
of the Agricultural Labor Relations Board, et al.,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF AMICI CURIAE INTERNATIONAL LAWYERS
ASSISTING WORKERS NETWORK (ILAW),
INTERNATIONAL COMMISSION FOR LABOR RIGHTS (ICLR),
GLOBAL LABOR JUSTICE–INTERNATIONAL LABOR
RIGHTS FORUM (GLJ-ILRF) AND CORNELL LABOR LAW
CLINIC IN SUPPORT OF RESPONDENTS
JENNIFER J. ROSENBAUM
ESMERALDA LOPEZ
GLOBAL LABOR JUSTICE –
INTERNATIONAL LABOR
RIGHTS FORUM
1634 I Street, NW, Suite 1000
Washington, DC 20006
(202) 347-4100
ANGELA B. CORNELL
CORNELL LABOR LAW CLINIC
Cornell University
Ithaca, NY 14853
(607) 255-7497

JEANNE MIRER
Counsel of Record
ASHWINI SUKTHANKAR
INTERNATIONAL COMMISSION
FOR LABOR RIGHTS
1 Whitehall Street, 16th Floor
New York, NY 10004
(212) 231-2235
jmirer@mmsjlaw.com
JEFFREY S. VOGT
JONATHAN HIATT
MONIKA MEHTA
INTERNATIONAL LAWYERS
ASSISTING WORKERS
NETWORK
1130 Connecticut Avenue, NW,
Suite 800
Washington, DC 20036
(202) 974-8385

i
TABLE OF CONTENTS

PAGE

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

iii

STATEMENT OF INTEREST. . . . . . . . . . . . . . . .

1

INTRODUCTION AND SUMMARY OF
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

I.

II.

Freedom of association is a customary
international law norm that should be
applied in this case to uphold the California
regulation. Integral to freedom of
association is the right of workers to meet
with trade union representatives at the
worksite to discuss union matters,
including to apprise workers of the benefits
of union representation – always with due
regard for property rights of the employer,
and without interfering with work . . . . . . .

3

A. Freedom of association and customary
international law . . . . . . . . . . . . . . . . . . . .

3

B. The primary status of conventions 87
and 98 and the role of ILO oversight
bodies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

International labor law recognizes the
special context of the agricultural
workplace but applies the same standards
regarding freedom of association and trade
union access . . . . . . . . . . . . . . . . . . . . . . . . . . . .

14

ii
PAGE

A. ILO conventions on protecting
agricultural workers . . . . . . . . . . . . . . . . . .

14

B. The ILO Committee of Experts on
trade union access . . . . . . . . . . . . . . . . . . .

17

III. Comparative law also supports the
principle of trade union access to
workplaces, including agricultural
worksites; most countries provide for such
access . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

18

A. Comparative legislation, regulation
and jurisprudence . . . . . . . . . . . . . . . . . . .

18

B. Collective bargaining for worker
protections . . . . . . . . . . . . . . . . . . . . . . . . . .

28

C. The ILO on trade unions and
government inspection regimes . . . . . . .

30

IV. Access to agricultural worksites is a
commonly accepted practice in corporate
social responsibility programs, “soft law”
which can be defined as a quasi-legal
obligation that does not have binding
force, but nevertheless is seen by actors in
the international sphere as a relevant
guide in determining the range of
acceptable conduct . . . . . . . . . . . . . . . . . . . . . .

32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

36

iii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Estate of Rodriguez v. Drummond Co.,
256 F.Supp.2d 1250 (N.D. Ala. 2003) . . . . . .

8

European Court of Human Rights, Demir and
Baykara v. Turkey, Application no.
34503/97 [2008] ECHR 1345
(12 November 2008) . . . . . . . . . . . . . . . . . . . . . .

6

Graham v. Florida, 560 U.S. 48 (2010) . . . . . . . .

8

Inter-American Court of Human Rights, Baena
Ricardo et al. (270 workers vs. Panama),
(February 2, 2001) . . . . . . . . . . . . . . . . . . . . . . .

7

International Court of Justice, Military and
Paramilitary Activities (Republic of
Nicaragua v. United States of America)
Merits. J. 27.6.1986 I.C.J. 14 . . . . . . . . . . . . . .

23

International Labour Office Governing Body,
284th Report of the Committee on Freedom
of Association, 254th Session, Geneva,
November 1992, Case No. 1523
(United States) . . . . . . . . . . . . . . . . . . . . . . . . . .

10

International Labour Office Governing Body,
354th Report of the Committee on Freedom
of Association, 305th Session, Geneva,
June 2009, Case No. 2618 (Chile). . . . . . . . . .

11

International Labour Office Governing Body,
374th Report of the Committee on Freedom
of Association, 323rd Session, Geneva,
March 2015, Case No. 2946 (Colombia) . . . .

11

iv
PAGE(S)

International Labour Office Governing Body,
370th Report of the Committee on Freedom
of Association, 319th Session, Geneva,
October 2013, Case No. 2969
(Mauritius) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

12

International Labour Office Governing Body,
355th Report of the Committee on Freedom
of Association, 306th Session, Geneva,
November 2009, Case No. 2642
(Russian Federation) . . . . . . . . . . . . . . . . . . . . .

13

International Labour Office Governing Body,
333rd Report of the Committee on Freedom
of Association, 289th Session, Geneva,
March 2004, Case No. 2255
(Sri Lanka) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

14

International Labour Office Governing Body,
66th Report of the Committee on Freedom
of Association, 153rd Session, Geneva,
November 1962, Case No. 239
(Costa Rica) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

Roper v. Simmons, 543 U.S. 551 (2005) . . . . . . .

8

Supreme Court of Canada, Health Services
and Support – Facilities Subsector
Bargaining Assn. v. British Columbia,
2007 SCC 27, June 8, 2007. . . . . . . . . . . . . . . .

5

The Paquete Habana, 175 U.S. 677 (1900) . . . . .

8, 36

Conventions, Statutes and Regulations
Australia Fair Work Act 2009 . . . . . . . . . . . . . 20, 22, 24
France Code du Travail, Article L. 2325-11 . . .

21

v
PAGE(S)

Finland Employment Contracts Act
(55/2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

21

ILO Declaration on Fundamental Principles
and Rights at Work, International Labor
Conference, 86th Session, Geneva,
June, 1998. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

4

ILO, Freedom of Association and Protection of
the Right to Organise Convention, 1948
(No. 87) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

4, 5

ILO, Right of Association (Agriculture)
Convention, 1921 (No. 11) . . . . . . . . . . . . . . . . .

15

ILO, Right to Organise and Collective
Bargaining Convention, 1949 (No. 98) . . . . .

4

ILO, Rural Workers' Organisations
Convention, 1975 (No. 141) . . . . . . . . . . . . . . .

15

India Plantations Labour Act of 1951 . . . . . . . . .

26

Ireland Employment Regulation Order
(Agricultural Workers Joint Labour
Committee) 2010 . . . . . . . . . . . . . . . . . . . . . . . . .

22

New Zealand Employment Relations Act
2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

24

Norway Working Environment Act . . . . . . . . . . .

27

Ontario Agricultural Employees Protection Act,
2002 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 23
Philippines, Presidential Decree No. 442, 6 s.
1974, Rule VII, Chapter 1, Section 18 . . . . . .

26

Poland Act of 13 April, 2007 on the National
Labor Inspectorate . . . . . . . . . . . . . . . . . . . . . . .

25

vi
PAGE(S)

Sweden Work Environment Act,
Ch 6, Section 2 . . . . . . . . . . . . . . . . . . . . . . . . . . .

27

Tanzania Employment and Labour Relations
Act, No. 8 of 2006 . . . . . . . . . . . . . . . . . . . . . . . .

24

United Kingdom Consulting workers on health
and safety: Safety Representatives and
Safety Committees Regulations 1977
(as amended) and Health and Safety
Consultation with Employees) Regulations
1996 (as amended) . . . . . . . . . . . . . . . . . . . . . . .

27

Zimbabwe Labour Act, Chapter 28:01 . . . . . . . . .

25

Other Authorities
American Public Health Association,
“Improving Working Conditions for
U.S. Farmworkers and Food Production
Workers,” Policy Statement,
November 7, 2017 . . . . . . . . . . . . . . . . . . . . . . . .

29

Adam Dean, Atheendar Venkataramani,
and Simeon Kimmel, “Mortality Rates
From COVID-19 Are Lower In Unionized
Nursing Homes,” Health Affairs,
September 10, 2020 . . . . . . . . . . . . . . . . . . . . . .

28

Driscoll’s, “Fair Trade Certification
Program” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

35

Fair Labor Association, “Participating
Companies” . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

32

Fair Labor Association, Workplace Code of
Conduct and Compliance Benchmarks
(September 2020) . . . . . . . . . . . . . . . . . . . . . . . .

33

vii
PAGE(S)

Fair Trade USA, Unannounced Audit Policy
(August 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . .

34

Food and Agriculture Organization, Committee
on World Food Security, “Principles for
Responsible Investment in Agriculture and
Food Systems” (2014) . . . . . . . . . . . . . . . . . . . . .

32

ILO Code of Practice, Safety and Health in
Agriculture (2011) . . . . . . . . . . . . . . . . . . . . . . . .

31

ILO Committee of Experts on the Application
of Conventions and Recommendations,
Giving Voice to Rural Workers: General
Survey concerning the right of association
and rural workers’ organizations instruments,
International Labour Conference,
104th Session (2015) . . . . . . . . . . . . . . . . . . 17, 18, 19
ILO NATLEX Database of national labour,
social security and related human rights
legislation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5

ILO, Wages and working conditions in the tea
sector: the case of India, Indonesia and Viet
Nam (December 23, 2020) . . . . . . . . . . . . . . . .

26

International Labor Organization, Compilation
of Decisions of the Committee on Freedom of
Association (6th Edition 2018) . . . . . . . . . . . .

16

International Labor Conference, Working
together to promote a safe and healthy
working environment, para. 470, ILC.106/
III/1B (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

31

viii
PAGE(S)

Mike McFate, “California Today: The Collapse
of Organized Farm Labor,” The New York
Times, February 2, 2017 . . . . . . . . . . . . . . . . . .

29

Pepsico, Inc., Global Supplier Code of Conduct
(June 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

33

United Nations Food and Agriculture
Organization, Committee on World Food
Security, Principles for Responsible
Investment in Agriculture and Food
Systems (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . .

32

1
STATEMENT OF INTEREST
Amici are not-for-profit organizations with a strong
interest in promoting the relevance of international
labor rights and standards in national labor law
systems. The International Lawyers Assisting
Workers (ILAW) Network brings together legal
practitioners and scholars around the world in an
exchange of ideas and information in order to best
represent the rights and interests of workers and their
organizations. 1
The International Commission for Labor Rights
(ICLR) coordinates the pro bono work of a global
network of lawyers and labor experts committed to
advancing workers’ rights through legal research,
advocacy, cross-border collaboration, and use of
international and domestic legal mechanisms. ICLR’s
legal network also responds to urgent appeals for
independent reporting on labor rights violations.
Global Labor Justice-International Law Rights
Forum (GLJ-ILRF) is a new merged organization that
advances cross-sectoral work on global value chains
and labor migration corridors, policies and laws that
protect decent work and just migration, and freedom
of association, new forms of bargaining, and worker
organizations.
The Labor Law Clinic at Cornell Law School
introduces students to the international labor law field
and represents clients with international labor law
issues. The clinic has done extensive work involving
the
International
Labor
Organization,
the
1 No counsel for a party authored this brief in whole or in part,
and no person other than amici and their counsel made a
monetary contribution to this brief’s preparation and submission.
The parties have consented in writing to the filing of this brief.

2
Organization
of
Economic
Cooperation
and
Development, the United Nations oversight
mechanisms related to freedom of association, and
with a broad range of private agreements that
integrate international labor standards. The Clinic
has also provided training seminars and workshops for
judges in many countries and regions on the topic of
international labor standards.
Amici are joined in a common goal to promote
customary international law on freedom of association,
the right to organize, and the right to collective
bargaining, which include workers’ right to
communicate with union representatives in the
workplace and the corresponding right of union
representatives to have access to the workplace for
such communication.
INTRODUCTION
AND SUMMARY OF ARGUMENT
The California Agricultural Labor Relations Board’s
regulation allowing farm workers to meet with union
representatives at the workplace is consistent with
customary international labor law standards on
freedom of association. Integral to freedom of
association is the right of workers to meet with trade
union representatives at the worksite to discuss union
matters, including to apprise workers of the benefits of
union representation – always with due regard for
property rights of the employer, and without
interfering with work.
International labor law recognizes the special
context of the agricultural workplace but applies the
same standards regarding freedom of association and
trade union access. Comparative law also supports the

3
principle of trade union access to workplaces,
including agricultural worksites; most countries
provide for such access.
Access to agricultural worksites is also a commonly
accepted practice in corporate social responsibility
programs, “soft law” which can be defined as a quasilegal obligation that does not have binding force, but
nevertheless is seen by actors in the international
sphere as a relevant guide in determining the range of
acceptable conduct.
Trade union access to the workplace is vitally
important for helping farm workers attain a safe and
healthy workplace, not least in the midst of the
Coronavirus pandemic. The ALRA regulation limiting
it as to time, place and duration is a reasonable
accomplishment of this customary international law
principle.
ARGUMENT
I. Freedom of association is a customary
international law norm that should be
applied in this case to uphold the California
regulation. Integral to freedom of association
is the right of workers to meet with trade
union representatives at the worksite to
discuss union matters, including to apprise
workers
of
the
benefits
of
union
representation – always with due regard for
property rights of the employer, and without
interfering with work.
A. Freedom of association and customary
international law.
International instruments and state practice
confirm the customary law status of freedom of

4
association (FOA). Freedom of association is
recognized as a fundamental right in every
international and regional human rights instrument,
from the Universal Declaration of Human Rights and
related international covenants 2 to regional human
rights charters and governing documents of
international organizations.
The International Labor Organization (ILO) is a
specialized agency of the United Nations with 186
member states, recognized as the authoritative
international body on labor rights and labor standards.
Freedom of association is enshrined as the first of the
four “core labor standards” in the ILO’s 1998
Declaration on Fundamental Principles and Rights at
Work. See ILO Declaration on Fundamental Principles
and Rights at Work, International Labor Conference,
86th Session, Geneva, June, 1998 https://www.ilo.org/
declaration/lang--en/index.htm. That instrument
points to ILO Conventions 87 and 98 on freedom of
association, the right to organize and the right to
collective bargaining as the foundation of freedom of
association principles. See ILO, Freedom of
Association and Protection of the Right to Organise
Convention, 1948 (No. 87); Right to Organise and
Collective Bargaining Convention, 1949 (No. 98). Most
member states, of which there are 187, have ratified
2 These Covenants are the International Covenant on Civil and
Political Rights, (ICCPR), and the International Covenant on
Economic Social and Cultural Rights. The United States has
ratified the ICCPR, and signed the ICESCR. The ICCPR provides
at Article 22, Everyone shall have the right to freedom of
association with others, including the right to form and join trade
unions for the protection of his interests. The California
Legislation at issue in this case allowing union access to workers,
are the kind of laws which implement the protections of this
ratified treaty.

5
conventions 87 and 98 (155 ratifications of C. 87; 167
ratifications of C. 98). See ILO, “Ratifications of ILO
Conventions” https://www.ilo.org/dyn/normlex/en/f?p=
1000:11001:::NO:::
Most countries’ constitutions and laws recognize
workers’ rights to form and join trade unions and to
bargain collectively. See ILO NATLEX Database of
national labour, social security and related human
rights legislation https://www.ilo.org/dyn/natlex/nat
lex4.home?p_lang=en.
Different countries apply different conditions and
limitations on the exercise of these rights, but these
variations do not belie their customary law status.
Many countries’ high courts have confirmed the
applicability of ILO standards in their national
constitutional and labor law systems. See, for example,
the decision of the Canadian Supreme Court stating:
Canada’s international obligations can assist
courts charged with interpreting the
Charter’s guarantees ... The sources most
important to the understanding of s. 2(d) of
the Charter are the International Covenant on
Economic, Social and Cultural Rights, the
International Covenant on Civil and Political
Rights, and the International Labour
Organization’s
Convention
(No.
87)
Concerning Freedom of Association and
Protection of the Right to Organize…This
means that these documents reflect not only
international consensus, but also principles
that Canada has committed itself to uphold.
See Health Services and Support – Facilities
Subsector Bargaining Assn. v. British
Columbia, 2007 SCC 27, June 8, 2007.

6
The European Court of Human Rights similarly
applied ILO standards as customary international law
in a case involving the right to collective bargaining in
light of Article 11 of the European Convention on
Human Rights (“Everyone has the right to freedom of
peaceful assembly and to freedom of association with
others, including the right to form and to join trade
unions for the protection of his interests”). See European
Convention on Human Rights https://www.echr.coe.int/
documents/convention_eng.pdf. The Court said:
The Court observes that in international law,
the right to bargain collectively is protected
by ILO Convention No. 98 concerning the
Right to Organise and to Bargain
Collectively… [H]aving regard to the
developments
in
labour
law,
both
international and national, and to the
practice of Contracting States in such
matters, the right to bargain collectively with
the employer has, in principle, become one of
the essential elements of the “right to form
and to join trade unions for the protection of
[one’s] interests” set forth in Article 11 of the
Convention... See European Court of Human
Rights, Demir and Baykara v. Turkey,
Application no. 34503/97 (2008). 3
This decision was issued by the European Court of Human
Rights, the most important European judicial authority
concerning workers’ fundamental freedoms and the role of
international law in defining the scope of those freedoms. This
decision, in which all eighteen judges of the Court’s Grand
Chamber concurred, is binding upon all states that are parties to
the European Convention on Human Rights and Fundamental
Freedoms. This Convention governs 800 million people.
[continued next page]

3

7
The Inter-American Court of Human Rights said
“[I]n trade union matters, freedom of association is of
the utmost importance for the defense of the legitimate
interests of the workers, and falls under the corpus
juris of human rights” and relied on decisions by the
ILO Committee on Freedom of Association and
Committee of Experts to find that Panama’s mass
dismissal of union members “violated the right to
freedom of association enshrined in Article 16 of the
American Convention.” See Inter-American Court of
Human Rights, Baena Ricardo et al. (270 workers vs.
Panama), February 2, 2001) https://www.corteidh.or.cr/
corteidh/docs/casos/articulos/seriec_72_ing.pdf.

In this case, the Court overturned the decision by a Turkish Court
which had allowed a public employer to repudiate a collective
agreement with a public sector union. The Turkish court had
relied, in part, on Turkey’s non-ratification of sections 5 and 6 of
the European Social Charter, on the right to organize and to
bargain collectively. In overturning the ruling of the Turkish
Court, the European Court of Human Rights considered
interpretations of the rights of freedom of association and
collective bargaining issued by the ILO. Particularly significant
in the European Court’s decision are the following findings:
1. In determining the meaning of freedom of association, the
Court must take into account “relevant rules and principles of
international law” (para. 67), “relevant international treaties”
(para. 69), “the interpretation of such elements by competent
organs” (para. 85) and “the consensus emerging from specialized international instruments and from the practice of
contracting states” (para. 85);
2. “It is not necessary that a state had ratified the entire
collection of applicable instruments; it is sufficient if relevant
international instruments denote evolution in the norms and
principles applied in international law” (para. 86);
3. Any restrictions that affect the essential elements of trade
union freedom, without which that freedom would become
devoid of substance, are unacceptable (para. 144).

8
Under the federal system in the United States,
incorporating international guarantees into law is
generally the preserve of Congress and/or state
legislatures. However, U.S. courts have often used
international law as an interpretive lens to guide and
develop constitutional law principles. As stated in The
Paquete Habana: “International law is part of our law
and must be ascertained and administered by the
courts of justice of appropriate jurisdiction as often as
questions of right depending upon it are duly
presented for their determination.” See The Paquete
Habana, 175 U.S. 677 (1900). See also, for example,
Graham v. Florida, 560 U.S. 648 (2010) and Roper v.
Simmons, 543 U.S. 551 (2005). Specifically with
regard to freedom of association and ILO standards, a
federal district court said:
After analyzing “international conventions,
international customs, treatises, and judicial
decisions rendered in this and other
countries” to ascertain whether the rights to
associate and organize are part of customary
international law, this court finds, at this
preliminary stage in the proceedings, that the
rights to associate and organize are generally
recognized as principles of international law
sufficient to defeat defendants’ motion to
dismiss. See Estate of Rodriguez v.
Drummond Co., 256 F.Supp.2d 1250 (N.D.
Ala 2003).
B. The primary status of conventions 87 and
98 and the role of ILO oversight bodies
The International Labor Organization (ILO) and its
specialized oversight organs, the Committee on
Freedom of Association (CFA) and the Committee of
Experts on the Application of Conventions and

9
Recommendations (CEACR), are authoritative sources
for determining international labor standards,
particularly with respect to freedom of association, the
right to organize and the right to collective bargaining.
The two conventions on freedom of association, C. 87
on freedom of association and protection of the right to
organize and C. 98 on the right to organize and
collective bargaining, are considered to have
constitutional status in the ILO. This means that
member countries are obligated to comply with these
conventions whether or not the countries have ratified
them.
The Committee on Freedom of Association (CFA) is
the specialized oversight body that receives complaints
against governments for violations of conventions 87
and 98. The United States has not ratified these
conventions, but is obligated by them and subject to
the CFA’s jurisdiction under the ILO constitution.
In dozens of cases, the CFA has confirmed that trade
union access to the workplace is necessary for the
application of conventions 87 and 98. A seminal case
arose in the United States involving Food Lion, a
Belgium-based multinational supermarket company,
at stores in Virginia where union representatives
sought to communicate with employees in non-work
areas, including parking lots adjacent to stores. Store
managers called police to have the union
representatives arrested.
In its Conclusions and Recommendations in the
Food Lion case, the CFA said that the United States
should
“guarantee
access
of
trade
union
representatives to workplaces, with due respect for the
rights of property and management, so that trade
unions can communicate with workers, in order to
apprise them of the potential advantages of

10
unionization.” See International Labour Office
Governing Body, 284th Report of the Committee on
Freedom of Association, 254th Session, Geneva,
November 1992, Case No. 1523 (United States).
https://www.ilo.org/dyn/normlex/en/f?p=1000:50002:0:
:NO:50002:P50002_COMPLAINT_TEXT_ID:2901959.
The CFA has consistently invoked this formulation
– union access with due respect for property rights and
business interests – in all subsequent cases involving
this issue. Amici offer a sample of cases here
demonstrating that such access is integral to the
exercise of rights to freedom of association.
Chile
In a case involving a copper mining company
management denying access to union representatives
because of potential safety hazards inherent in a
mining worksite:
Although it takes note of the particular
characteristics of the mining industry, which
could complicate the granting of access to
workers from outside an enterprise, the
Committee recalls that on numerous
occasions
it
has
underlined
that
“governments should guarantee the access of
trade union representatives to workplaces,
with due respect for the rights of property and
management, so that trade unions can
communicate with workers in order to apprise
them of the potential advantages of
unionization.” In these circumstances, the
Committee requests the Government to take
all necessary measures to promote an
agreement . . . so that [union] representatives
can gain access to workplaces to pursue their

11
union activities, without compromising the
functioning of the enterprise.
See International Labour Office Governing Body,
354th Report of the Committee on Freedom of
Association, 305th Session, Geneva, June 2009, Case
No. 2618 (Chile), para. 360 at https://www.ilo.org/
wcmsp5/groups/public/---ed_norm/---relconf/documents/
meetingdocument/wcms_108490.pdf
Colombia
In a case involving management’s denial of union
representatives’ access to oil field workers based on
industrial safety concerns:
The Committee therefore requests the
Government to take the necessary measures
to ensure that, under conditions which take
into account objective security concerns and
do not impede their efficient functioning, all
of the enterprises in the oil sector allow
external trade union officials to enter staff
areas, whether to meet with their members or
to inform non-unionized workers of the
potential benefits of membership. See
International Labour Office Governing Body,
374th Report of the Committee on Freedom of
Association, 323rd Session, Geneva, 12-17
March 2015, Case No. 2946 (Colombia), para.
242 at https://www.ilo.org/wcmsp5/groups/
public/---ed_norm/---relconf/documents/meeting
document/wcms_357167.pdf.
Mauritius
In a case in which hotel management unilaterally
halted a 10-year practice of permitting union
representatives’ access to the workplace to meet with
workers during their lunch periods:

12
The Committee generally recalls that the
right of occupational organizations to hold
meetings to discuss occupational questions is
an essential element of freedom of
association. Observing that the company has
authorized the use of its premises for the
holding of trade union meetings for more than
ten years, the Committee emphasizes that the
change of a longstanding policy without
imperative reasons involving the withdrawal
of previously granted facilities would not be
conducive to harmonious labour relations.
The Committee requests the Government to
intercede with the parties with a view to
finding a mutually acceptable solution and to
keep it informed of any developments in this
regard. See International Labour Office
Governing Body, 370th Report of the
Committee on Freedom of Association, 319th
Session, Geneva, 16-31 October 2013, Case
No. 2969 (Mauritius), para. 527 at
https://www.ilo.org/wcmsp5/groups/public/--ed_norm/---relconf/documents/meetingdocu
ment/wcms_228181.pdf.
Russian Federation
In a case involving management’s denial of access to
union representatives not directly employed by the
company:
Governments should guarantee the access of
trade union representatives to workplaces,
with due respect for the rights of property and
management, so that trade unions can
communicate with workers in order to apprise
them of the potential advantages of
unionization
and
carry
out
their

13
representation function…[The Committee]
requests the Government to take the
necessary measures in order to ensure that
the trade union’s occupational health and
safety inspectors are granted access to the
enterprise in order to exercise their rights to
oversee the observance of labor, health and
safety legislation, conferred on them by the
Law on Trade Unions. See International
Labour Office Governing Body, 355th Report
of the Committee on Freedom of Association,
306th Session, Geneva, November 2009, Case
No. 2642 (Russian Federation), para. 1161;
1179(b) at https://www.ilo.org/wcmsp5/groups/
public/---ed_norm/---relconf/documents/meeting
document/wcms_117701.pdf.
Sri Lanka
In a case involving denial of access to union
representatives by management of an industrial
factory zone pursuant to a Labor Relations Manual
requiring unions to represent at least 40 percent of the
workers:
The Committee considers that these
requirements do not allow access to an
EPZ/FTZ enterprise of trade unions which do
not have representative status in the
particular enterprise, in order to inform the
workers of the advantages of trade unionism.
The Committee recalls that governments
should guarantee access of trade union
representatives to workplaces, with due
respect for the rights of property and
management, so that trade unions can
communicate with workers, in order to
apprise them of the potential advantages of

14
unionization…The
Committee
therefore
requests the Government to ensure that trade
union representatives are granted access to
the workplace even when their organization
does not have representative status in a
particular EPZ/FTZ enterprise, and that
permission for such access may not be
unreasonably withheld, with due respect to
the need to maintain the smooth functioning
of the enterprise concerned. See International
Labour Office Governing Body, 333rd Report
of the Committee on Freedom of Association,
289th Session, Geneva, March 2004, Case No.
2255
(Sri
Lanka),
para.
131
at
https://www.ilo.org/dyn/normlex/en/f?p=1000:
50002:0::NO:50002:P50002_COMPLAINT_
TEXT_ID:2907703.
II. International labor law recognizes the
special context of the agricultural workplace
but applies the same standards regarding
freedom of association and trade union
access.
A. ILO conventions on protecting agricultural
workers
One of the earliest conventions adopted by the ILO
went directly to the question of protecting agricultural
workers’ freedom of association. Convention 11 says,
in Article 1:
Each Member of the International Labour
Organisation which ratifies this Convention
undertakes to secure to all those engaged in
agriculture the same rights of association and
combination as to industrial workers, and to
repeal any statutory or other provisions
restricting such rights in the case of those

15
engaged in agriculture. See ILO, Right of
Association (Agriculture) Convention, 1921
(No. 11) https://www.ilo.org/dyn/normlex/en/
f?p=NORMLEXPUB:12100:0::NO::P12100_ILO
_CODE:C011
ILO Convention 141, adopted in 1975, gave more
content to the freedom of association rights of
farmworkers:
All categories of rural workers, whether they
are wage earners or self-employed, shall have
the right to establish and, subject only to the
rules of the organisation concerned, to join
organisations, of their own choosing without
previous authorization…The principles of
freedom of association shall be fully
respected; rural workers’ organisations shall
be independent and voluntary in character
and shall remain free from all interference,
coercion or repression… See ILO Rural
Workers’ Organisations Convention, 1975
(No. 141) https://www.ilo.org/dyn/normlex/en/
f?p=NORMLEXPUB:55:0:::55:P55_TYPE,P55
_LANG,P55_DOCUMENT,P55_NODE:CON,
en,C141,/Document.
The Committee on Freedom of Association has
recognized the special characteristics of the
agricultural workplace but insists on the continued
application of principles regarding trade union access:
The Committee has recognized that
plantations are private property on which the
workers not only work but also live. It is
therefore only by having access to plantations
that trade union officials can carry out normal
trade union activities among the workers. For
this reason, it is of special importance that the

16
entry of trade union officials into plantations
for the purpose of carrying out lawful trade
union activities should be readily permitted,
provided that there is no interference with the
carrying on of the work during working hours
and subject to any appropriate precautions
being taken for the protection of the property.
See ILO Compilation of Decisions of the
Committee on Freedom of Association (6th
Edition 2018), para. 1609 https://www.ilo.org/
wcmsp5/groups/public/---ed_norm/---normes/
documents/publication/wcms_632659.pdf.
In a Costa Rica case involving United Fruit company
management forbidding trade union representatives
to use public roads in large plantation areas to reach
workers at their homes, the CFA said:
[E]mployers of plantation workers should
provide for the freedom of entry of the unions
of such workers for the conduct of their
normal activities…[T]he Committee, while
recognising fully that the estates are private
property, considers that, as the workers not
only work but also live on the estates, so that
it is only by entering the estates that trade
union officials can normally carry on any
trade union activities among the workers, it
is of special importance that the entry into the
estates of trade union officials for the purpose
of lawful trade union activities should be
readily permitted, provided that there is no
interference with the carrying on of the work
during working hours and subject to any
appropriate precautions for the protection of
the estate. See International Labour Office
Governing Body, Report No. 66, (1963) Case
No. 239 (Costa Rica), paras. 154, 168

17
https://www.ilo.org/dyn/normlex/en/f?p=1000:
50002:0::NO:50002:P50002_COMPLAINT_
TEXT_ID:2898464.
B. The ILO Committee of Experts on trade
union access
The Committee of Experts on the Application of
Conventions and Recommendations (CEACR) is a
group of 20 eminent jurists appointed by the
Governing Body for renewable three-year terms. In
annual general reports to the ILO conference, the
Committee makes observations on countries’
application of selected ratified Conventions. Where it
identifies shortfalls, the Committee puts questions to
the government concerned, requiring follow-up
responses and information.
In a 2015 report titled Giving Voice to Rural Workers
the Committee of Experts said:
Rural workers’ organizations should have the
right to organize their activities in full freedom
and to formulate their programmes with a
view to defending the occupational interests of
their members while respecting the law of the
land. This includes, in particular, the right of
trade union officers to have access to places of
work and to communicate with management,
the right to collective bargaining, and the right
to organize protest actions.
[P]roblems which may arise concerning the
access of organizations of rural workers to
their members should be dealt with in a
manner respecting the rights of all concerned
and in accordance with the terms of
Convention No. 87…In this respect, the
Committee emphasized the importance for

18
governments to take measures by legislative
means to safeguard the right of access of trade
union leaders and representatives to farms
and plantations to meet with workers …
[A]ccess by trade union officials for the
purpose of carrying out lawful trade union
activities should be readily permitted,
provided that there is no interference with
work being performed during working hours
and subject to any appropriate precautions
being taken for the protection of the property.
See ILO Committee of Experts on
the Application of Conventions and
Recommendations, General Survey concerning
the right of association and rural workers’
organizations instruments, International
Labour Conference, 104th Session (2015),
paras. 149, 152, 153 https://www.ilo.org/public/
libdoc/ilo/P/09661/09661(2015-104-1B).pdf.
III. Comparative law also supports the principle
of trade union access to workplaces,
including agricultural worksites; most
countries provide for such access.
A. Comparative legislation, regulation and
jurisprudence
Most countries have enacted or applied legislation,
regulation and judiciary rulings to permit trade union
access to workers in agricultural workplaces consistent
with the rulings of the ILO Committee on Freedom of
Association noted above. Having established the
international law obligations, we show here how
national and subnational jurisdictions have been able
to put in place domestic legal and policy frameworks
that fulfill those obligations, while remaining sensitive
to distinct social and economic contexts.

19
These frameworks, in general, provide for deep
cooperation between governments and trade unions,
and in some cases employers. They typically balance
different public interests – enforcing farmworkers’
rights, empowering them to speak out about violations
of law, ensuring uninterrupted production of
agricultural commodities critical from the perspective
of food supply, protecting property rights and business
operations.
The State of California’s approach to regulating
access to farms is generally consistent with
international law and the practice of most states, and
so deserving of deference as an appropriate balancing
of international obligations, workers’ rights, public
interest and public policy goals.
The international standards related to freedom of
association on farms, as the ILO supervisory bodies
have described, and as laid out above, are highly
attentive to the particular vulnerability of agricultural
workers, and the need for special measures to enable
them to organize and exercise a voice at work. They
often reside on employer property – or in housing
effectively controlled by the employer – they are more
likely to be internal or cross-border migrants and are
more likely to be living in poverty.
Many of those vulnerabilities are relevant, as we
assess the state’s interest in promoting organization
among these workers. The ILO’s Committee of Experts
has documented the inadequacy of labor inspection
regimes in agriculture, in countries as diverse as
Cameroon, South Africa, Tunisia, Brazil, New
Zealand, the Dominican Republic and the
Netherlands. See ILO Committee of Experts on the
Application of Conventions and Recommendations,
Giving Voice to Rural Workers: General Survey

20
concerning the right of association and rural workers’
organizations instruments, International Labour
Conference, 104th Session (2015), paras. 149, 152, 153
https://www.ilo.org/public/libdoc/ilo/P/09661/09661(20
15-104-1B).pdf.
Given this, and the critical role that farms and
farmworkers play in food supply chains, the public
interest in systems of co-enforcement of workers’
rights guarantees in law – with unions playing a
strong role in monitoring conditions and encouraging
workers to come forward to report violations – is
especially strong.
The obligation to ensure freedom of association for
farmworkers is described in detail above. Below, we
set forth the range of ways in which jurisdictions
around the world have met their obligation and
advanced public interest in strong worker voice on
farms, without imperiling other interests or
undermining competing rights.
In the first place, states have generally refused to
weigh access against generic property rights defined in
overly broad ways. Indeed, safety, security, and the
continuous operation of the business are the more
common countervailing interests explicitly set forth in
these frameworks.
For example, Australian legislation limits trade
union access to protect “the right of occupiers of
premises and employers to go about their business
without undue inconvenience.” See Australia Fair
Work Act 2009, Chapter 3, Parts 3-4 “Right of Entry”
https://www.fwc.gov.au/registered-organisations/entrypermits#field-content-2-heading.
The province of Ontario states that access “must not
interfere with work processes, health and safety and

21
other considerations.” See Ontario Agricultural
Employees Protection Act, 2002, S.O. 2002, c. 16 - Bill
187 https://www.ontario.ca/laws/statute/s02016
France’s Labor Code requires that access for works
council members and trade union representatives
“not cause substantial inconvenience to the
accomplishment of work” [“ne pas apporter de gêne
importante à l’accomplissement du travail des
salariés.”]. See France Code du Travail, Article L.
2325-11 https://www.legifrance.gouv.fr/codes/id/LEGI
ARTI000006902064/2008-05-01
This is not because these jurisdictions fail to take
property rights seriously – protections against
government or private incursions are in many cases at
least as ample as those in the United States. But in
the absence of threatened damage to property, most
jurisdictions understand that property rights are not
especially relevant to an assessment of access to the
workplace. Just as legal frameworks therefore balance
access against the impact on business operations (and
not property rights) as a primary consideration, the
entity from which access is sought is not the property
owner but the employer, and the locations to be
accessed are defined as those “under the employer’s
control,” to use the framing from Finland’s
Employments Contracts Act:
The employer must allow employees and their
organisations to use suitable facilities under
the employer’s control free of charge during
breaks and outside working hours in order to
deal with employment issues and matters
forming part of the function of trade unions.
Exercise of this right of assembly must not
have a harmful impact on the employer’s
operations”
See
Finland
Employment

22
Contracts Act (55/2001), Chapter 13, Sec. 2
https://www.finlex.fi/en/laki/kaannokset/2001/
en20010055.pdf
Allowing access only during breaks and outside
working hours, and to break rooms/lunch rooms, is
similar to the ALRB rule, and is a common means
across jurisdictions of limiting the impact of access on
business operations.
Australia’s Fair Work Act permits access to “any
room or area: (a) in which one or more of the persons
who may be interviewed or participate in the
discussions ordinarily take meal or other breaks; and
(b) that is provided by the occupier for the purpose of
taking meal or other breaks.” See Australia Fair Work
Act 2009, Chapter 3, Parts 3-4 “Right of Entry”
https://www.fwc.gov.au/registered-organisations/entrypermits#field-content-2-heading
Ireland seeks to enable access through a flexible
standard and bilateral negotiation, rather than a strict
rule, suggesting a different labor relations culture.
Agricultural employers and trade union officials are
required to “cooperate” in order to enable “reasonable
access to Agricultural Workers” while ensuring that
access “will not interfere with the normal working of
the Agricultural Employer.” See Employment
Regulation Order (Agricultural Workers Joint Labour
Committee) 2010, S.I. No. 164 of 2010, Schedule
A “Union Access to Workers” http://www.irish
statutebook.ie/eli/2010/si/164/made/en/pdf#:~:text=The
%20Agricultural%20Employers%20should%20cooperate,
working%20of%20the%20Agricultural%20Employer.
Distinctions such as these reflect an intensely local
assessment of the circumstances and the interests
involved in regulating access, with divergence in detail
and
convergence
in
principle.
Procedural

23
requirements in national law are details; access within
reasonable limits is the common principle.
Even where there is divergence, customary
international law does not require absolute uniformity
of practice. As the International Court of Justice said
in the Nicaragua Case:
The Court does not consider that, for a rule to
be
established
as
customary,
the
corresponding practice must be in absolutely
rigorous conformity with the rule. In order to
deduce the existence of customary rules, the
Court deems it sufficient that the conduct of
States should, in general, be consistent with
such rules . . . See International Court of
Justice, Military and Paramilitary Activities
(Nicaragua/United States of America) Merits.
J.
27.6.1986
I.C.J.
Reports
1986
https://www.icj-cij.org/en/case/70/judgments.
Jurisdictions also commonly regulate the purpose of
union access to agricultural workers, in recognition of
the state obligation to enable freedom of association,
as well as the public interest in a robust role for worker
representatives. With respect to the goal of building
strong workers’ organizations:
The Ontario Agricultural Employees Protection Act
empowers the Labor Tribunal to grant access by union
representatives to agricultural workplaces “for the
purpose of attempting to persuade the employees to
join an employees’ association.” See Ontario
Agricultural Employees Protection Act, 2002, S.O.
2002, c. 16 - Bill 187 https://www.ontario.ca/laws/
statute/s02016
Tanzania’s Employment and Labour Relations Act
says, “Any authorised representative of a registered

24
trade union shall be entitled to enter the employer’s
premises in order to recruit members; communicate
with members; meet members in dealings with
the employer; and hold meetings of employees on
the premises” See Tanzania Employment and
Labour Relations Act, No. 8 of 2006, Sec. 60
https://www.tanzania.go.tz/egov_uploads/documents/Em
ployment%20and%20LAbour%20Relation%20Act.pdf.
New Zealand’s Employment Relations Act 2000
provides for union access to workplaces “to seek to
recruit employees as union members” and “to provide
information on the union and union membership to
any employee on the premises.” See New Zealand
Employment
Relations
Act
2000
Secs.20-21
https://www.legislation.govt.nz/act/public/2000/0024/
latest/DLM58644.html.
Many jurisdictions are also explicit about the coenforcement role that trade unions commonly play. In
addition to enabling access for unions “to hold
discussions with potential members,” Australia’s Fair
Work Act recognizes access for the purpose of enabling
unions to “investigate suspected contraventions of this
Act and fair work instruments and State or Territory
OHS laws.”
See Australia Fair Work Act 2009, Chapter 3, Parts
3-4 “Right of Entry” https://www.fwc.gov.au/
registered-organisations/entry-permits#field-content2-heading.
As a basic matter, many state frameworks that are
premised on access to worksites (labor inspectorates
especially) assume the need to collaborate with
workers representatives in order to be effective. In
some cases, this may be through tripartite, highly
formalized structures of cooperation:

25
Poland’s law establishing a labor inspectorate also
established a Labor Protection Council to supervise its
activity and the promotion of labor standards. This
council is made up of members of parliament,
candidates proposed by the Prime Minister, and
candidates proposed by trade unions and employers
organizations (Article 7) The legislation goes on to
require that the “National Labour Inspectorate,
during implementation of tasks, cooperates with trade
unions [...]” (Article 14). The inspectorate has free
access to the employer’s premises (Article 23) See Act
of 13 April, 2007 on the National Labor Inspectorate,
https://www.pip.gov.pl/en/about-us
Other jurisdictions frame the work of coenforcement differently. Zimbabwe’s Labour Act
covers access for state officials and trade unions under
the same provision, stating that “Every employer shall
permit a labour officer or a representative of the
appropriate trade union, if any, to have reasonable
access to his employees at their place of work during
working hours.” It does not distinguish between them
in stating the purpose of this access: “advising the
employees on the law relating to their employment;
advising and assisting the employees in regard to the
formation or conducting of workers committees and
trade unions; and ensuring that the rights and
interests of the employees are protected and
advanced.” See Zimbabwe Labour Act, Chapter 28:01,
Sec. 7 http://veritaszim.net/sites/veritas_d/files/Labour
%20Act%20updated%20to%202019.pdf.
In other cases, state and labor union collaborations
on enforcement that are built around access to
agricultural workers at their place of work may be
designed to advance very specific interests.

26
Wages are one area where a number of jurisdictions
rely extensively on trade union expertise. In India, for
example, the Plantation Labour Act requires public
access to plantations where workers live onsite
(Section 16f). Wages for this sector are not set by the
government, but rather through bipartite or tripartite
negotiation, depending on the state, and are thus
premised on union access to workers, and union
assessments of the value of housing and other benefits
received from the employer. See India Plantations
Labour Act of 1951 http://legislative.gov.in/sites/
default/files/A1951-69.pdf; see also ILO, “Wages and
working conditions in the tea sector: the case of India,
Indonesia and Viet Nam,” December 23, 2020
https://www.ilo.org/global/docs/WCMS_765135/lang--en/
index.htm.
The Labor Code of the Philippines not only grants
the Department of Labor and Employment access to
employer premises at any time when work is
underway, in order to conduct inspections (Article
128), but requires that inspectors be accompanied by a
union representatives “to determine whether the
workers are paid the prescribed wage rates and other
benefits granted by law or any Wage Order.” See
Philippines, Presidential Decree No. 442, s. 1974, Rule
VII, Chapter 1, Section 18 https://www.official
gazette.gov.ph/1974/05/01/presidential-decree-no-442s-1974/.
The goal of ensuring worker and union participation
in health and safety is deemed especially critical. A
number of countries provide for ample trade union
access to workplaces, including or even singling out
farms, to consult with workers and monitor conditions
on this crucial issue.

27
Swedish law on labor inspection requires worker
safety representatives, appointed by trade unions or
elected directly by workers. If there is no such
representative at a given work site, the local branch of
a union may appoint an outside representative, who is
granted access in order to meet workers and inspect
conditions. See Sweden Work Environment Act, Ch 6,
Section 2 https://www.av.se/arbetsmiljoarbete-ochinspektioner/lagar-och-regler-om-arbetsmiljo/arbetsmil
jolagen/arbetsmiljoforordningen/
Norway’s Working Environment Act states that, if
no election for a worker safety representative has
taken place, the state may enter the workplace to
impose representation and carry out an election. See
Norway Working Environment Act https://www.arbeid
stilsynet.no/en/laws-and-regulations/laws/the-workingenvironment-act/6/6-1/
In the UK, trade unions are entitled to appoint
safety representatives who can inspect the workplace.
While the representative must be employed at the
workplace, he/she is then entitled to represent the
interests of all workers, even those not members of the
union. See United Kingdom, Consulting workers on
health and safety: Safety Representatives and Safety
Committees Regulations 1977 (as amended) and
Health and Safety Consultation with Employees)
Regulations 1996 (as amended) https://www.hse.gov.uk/
pubns/priced/l146.pdf
This survey of countries’ treatment of trade union
access to the workplace confirms a near-universal
application of ILO standards balancing reasonable
rights of access with due regard for other interests and
rights. While approaches vary from country to country,
underlying them is an international consensus on the
general principle expressed in the ILO Committee on

28
Freedom of Association’s decision in the Food Lion
case, confirming workers’ right to hear from trade
union representatives in the workplace about the
potential advantages of unionization, balanced with
due respect for the rights of property and
management. Owners’ property rights are not
fundamentally or
substantially abridged
by
regulations granting temporary access to organizers.
These comparative examples and cases demonstrate
that a trade union role in monitoring and consultation is
vital in order to ensure occupational safety and health in
the workplace, including the agricultural workplace,
along with effective OSH inspection and enforcement
systems. Safety and health in the agricultural workplace
also enhance food safety and health protecting workers
in the food supply chain, as well as consumers.
B. Collective
bargaining
protections

for

worker

Where workers have unions and the right to
collective bargaining consistent with ILO standards,
they also seek health and safety protections through
collective bargaining. This is especially apparent in
the Covid-19 crisis in the workplace. For example, one
recent study of the nursing home sector found that
nursing homes where workers had union
representation had a 30% relative decrease in the
COVID-19 mortality rate compared to facilities
without health care worker unions. 4
See Adam Dean, Atheendar Venkataramani, and Simeon
Kimmel, “Mortality Rates From COVID-19 Are Lower In
Unionized Nursing Homes,” Health Affairs, September 10, 2020,
at https://www.healthaffairs.org/doi/full/10.1377/hlthaff.2020.01
011?utm_medium=press&utm_source=mediaadvisory&utm_cam
paign=CovidFasttrack&utm_content=Dean&.
4

29
Regarding agricultural workers, the American
Public Health Association has noted:
Unions serve as a mechanism for workers to
negotiate with employers to provide livable
wages, health benefits, and safe working
conditions. Unions have a positive effect on
both unionized workers and non-union
workers with respect to wages, fringe
benefits, pay inequality, and working
conditions. Lack of union representation and
protection can result in vulnerable workers
remaining silent in the face of exploitation
and continuing to work in unsafe conditions.
See American Public Health Association,
“Improving Working Conditions for U.S.
Farmworkers and Food Production Workers,”
Policy Statement, November 7, 2017.
https://www.apha.org/policies-and-advocacy/
public-health-policy-statements/policy-data
base/2018/01/18/improving-working-conditions.
Government inspection alone cannot meet the need. In
California, the agency tasked with ensuring health and
safety across worksites noted how sorely understaffed its
inspectorate was, in the context of the impact of the
drastic fires in September 2020 on farmworkers – there
was no more than one inspector for every 1000 worksites.
https://www.pri.org/stories/2020-09-18/amid-wildfiresus-farmworkers-labor-few-protections.
The level of union representation in agriculture,
including in California, is extremely low. 5 This makes
See Mike McFate, “California Today: The Collapse of Organized
Farm Labor,” The New York Times, February 2, 2017
https://www.nytimes.com/2017/02/02/us/california-today-farmwork
er-unions.html.
5

30
the effective application of the ALRB access regulation
all the more important to help workers defend their
lives and their health though organization and
collective bargaining.
C. The ILO on trade unions and government
inspection regimes
The ILO Committee of Experts has noted the
relationship and mutual reinforcement of workers and
union involvement alongside government inspectors in
safety and health matters.
On workers and unions’ involvement in safety and
health:
The Committee notes that the national
legislation in many countries, such as in the
Member States of the European Union,
established the right for workers or their
representatives to participate in risk
assessments carried out by employers …The
Committee emphasizes the importance of the
participation of workers in the promotion of
compliance, and recalls that this requires the
provision of adequate and appropriate
training, as well as measures to ensure that
workers receive the necessary health and
safety
information…[The
Committee
recognizes the relevance of collective
agreements as an important element of the
national system for occupational safety and
health and their significance to the
progressive development of a safer and
healthier working environment.
[T]he Committee also notes that certain trade
unions have referred to the positive
experience of the involvement of trade unions

31
in
labour
inspection…Moreover,
the
involvement of workers in workplace
monitoring should not be linked to a reduction
in the enforcement function of independent
labour inspectors. See International Labor
Conference, Working together to promote a
safe and healthy working environment, para.
470, ILC.106/III/1B (2017), https://ilo.user
services.exlibrisgroup.com/discovery/delivery/
41ILO_INST:41ILO_V2/1245409490002676?l
ang=en.
The ILO’s Code of Practice on safety and health in
agriculture says that countries’ OSH policies:
should include, as a minimum, the following
key principles and objectives to which
employers are committed, namely …
complying with relevant OSH national laws
and regulations, voluntary programmes,
collective agreements on OSH and other
requirements to which the enterprise
subscribes or may wish to subscribe [and]
ensuring
that
workers
and
their
representatives are consulted and encouraged
to participate actively in all elements of the
OSH management system [and that]
employers should consult with workers and
their
representatives
concerning
modifications to be carried out on facilities,
vehicles, equipment or workstations. See
ILO Code of Practice, Safety and Health in
Agriculture (2011) https://www.ilo.org/wcmsp5/
groups/public/---ed_dialogue/---sector/docu
ments/normativeinstrument/wcms_161135.
pdf.

32
IV. Access to agricultural worksites is a
commonly accepted practice in corporate
social responsibility programs, “soft law”
which can be defined as a quasi-legal
obligation that does not have binding force,
but nevertheless is seen by actors in the
international sphere as a relevant guide in
determining the range of acceptable
conduct.
International organizations have recognized the role
of workers and unions in agricultural and food
systems: “Workers and their organizations play a key
role in promoting and implementing decent work,
thereby contributing to efforts towards sustainable
and inclusive economic development. They also have a
crucial role in engaging in social dialogue with all
other stakeholders...” See Food and Agriculture
Organization, Committee on World Food Security,
“Principles for Responsible Investment in Agriculture
and Food Systems” (2014) http://www.fao.org/3/aau866e.pdf.
Mandatory access to the agricultural workplace by
auditors and monitors enforcing compliance with
international standards is a common feature of myriad
corporate social responsibility schemes. Amici here
offer some examples from the agricultural sector.
The Fair Labor Association is a major grouping of
mostly U.S.-based companies with global supply
chains in agricultural, apparel, footwear, sporting gear
and other sectors. See Fair Labor Association,
“Participating Companies” https://www.fairlabor.org/
affiliates/participating-companies.
To participate in the FLA:

33
Employers shall maintain on file all
documentation needed to demonstrate
compliance with the FLA Workplace Code
and required laws. Employers shall make
these documents available to third-party
assessors commissioned by the FLA and shall
submit to inspections without prior notice.
See Fair Labor Association, “Workplace Code
of Conduct and Compliance Benchmarks”
(September 2020) https://www.fairlabor.org/
sites/default/files/fla-charter_revised_sept
ember_2020.pdf.
U.S.-based Pepsico Corp. maintains a supplier code
of conduct obligating compliance with code
requirements that include mandatory access for
auditors and monitors enforcing the code: The Code
requires suppliers to comply with international
standards on wages, working hours and benefits;
forced and child labor, safe and healthy working
conditions, and to “respect employees’ rights to
freedom of association and collective bargaining.” The
Code goes on to say:
To conduct business with Pepsico, suppliers
must enter into contracts and execute
purchase orders that mandate compliance
with the Supplier Code. With prior notice,
Pepsico may conduct reasonable audits to
verify Supplier’s compliance with the
Supplier Code. See Pepsico, Inc. “Global
Supplier Code of Conduct” (June 2018)
https://www.pepsico.com/docs/album/supplier
-code-of-conduct/pepsico-global-scoc-final_
english.pdf.
Many agricultural producers participate in “fair
trade” programs that requires access to worksites by

34
third-party auditors
and monitors
ensuring
compliance with program requirements. The main
U.S.-based fair trade body, Fair Trade USA, has an
“unannounced audit policy” that says:
Unannounced audit refers to audits with no
notification provided to the client by Fair
Trade USA or the conformity assessment
bodies (CABs) prior to the audit taking
place…When advanced notification is
necessary to gain access to the certified sites,
such notification shall not exceed 24 hours in
advance. If more notice is deemed necessary,
such as in cases where travel and scheduling
is particularly difficult, prior approval from
Fair Trade USA is required.
Whenever possible, unannounced audits will
be conducted during periods of high activity
(e.g. production, harvest) to ensure that
findings are relevant and representative of
the overall management of the sites included
under the certification. Client facilitation of
announced and unannounced audits is a
requirement of Fair Trade USA Standards.
Client facilitation of audits includes granting
auditors access to all documentation (for
document review including records, contracts,
receipts, forms, policies, etc.), all workers (for
worker interviews) and all production sites
(for observation) needed to evaluate
compliance with the compliance criteria. See
Fair Trade USA, “Unannounced Audit Policy”
(August
2018)
https://www.fairtrade
certified.org/sites/default/files/filemanager/
documents/Standards/CRT_POL_Unannounced
Audits_EN_1.0.0.pdf.

35
One of the major agricultural producers in
California, Driscoll’s berries, is certified by Fair Trade
USA pursuant under the program that includes
mandatory access to the workplace. Driscoll’s says this
about the program:
Driscoll’s is committed to the well-being of our
workforce and their communities everywhere
we operate. This led us to establish our global
labor standards and work with our
independent growers to continuously improve
working conditions through audits and ranch
improvement plans. We knew we could do
more, which is why we partner with Fair
Trade USA. Their certification not only aligns
with our global labor standards, but also
provides an opportunity for us to directly
impact the local community and people who
live and work in the region. See Driscoll’s,
“Fair
Trade
Certification
Program”
https://www.driscolls.com/about/thriving-work
force/fair-trade.
These
examples
demonstrate
that
many
agricultural producers, including in California, accept
adherence to international labor standards enforced
through mandatory auditing, monitoring and
inspection programs at the workplace to ensure
compliance. Producers should have no less objection to
the California ALRA regulation granting limited
access to union representatives to discuss organizing
and collective bargaining with workers in keeping
with access principles articulated by the ILO
Committee on Freedom of Association.

36
CONCLUSION
Freedom of association, the right to organize and the
right to collective bargaining have achieved the status
of customary international which the Court should
take into account in this case, based on legal principles
enunciated in the The Paquete Habana and its
progeny. See 175 U.S. 677 (1900).
Decisions of the ILO Committee on Freedom of
Association and Committee of Experts have established
workers’ right to hear from union representatives in the
workplace, and the corresponding right of access to the
workplace by such representatives, as integral elements
of freedom of association. Comparative law and practice
confirm the applicability of the access principle.
Trade union access to the workplace is vitally
important for helping workers attain a safe and healthy
workplace, not least in the midst of the Coronavirus
pandemic. Workers’ freedom of association and safety
and health rights are recognized and guaranteed in
voluntary labor regulation regimes under corporate
social responsibility (CSR) programs which require
access to agricultural worksites of employers
participating in such programs.
The California ALRA regulation authorizing union
access to growers’ property with limitations as to time,
place and manner fits squarely in the mainstream of
international, comparative and CSR norms on such
access. Amici urge the Court to preserve the
regulation.

37
February 8, 2021
Respectfully submitted,
JEANNE MIRER
Counsel of Record
ASHWINI SUKTHANKAR
INTERNATIONAL COMMISSION
FOR LABOR RIGHTS
1 Whitehall St. 16th Floor
New York, NY 10004
(212) 231-2231
jmirer@mmsjlaw.com
JEFFREY S. VOGT
JONATHAN HIATT
MONIKA MEHTA
INTERNATIONAL LAWYERS ASSISTING
WORKERS NETWORK
1130 Connecticut Ave., NW, Suite 800
Washington, DC 20036
(202) 974-8385
JENNIFER J. ROSENBAUM
ESMERALDA LOPEZ
GLOBAL LABOR JUSTICE–
INTERNATIONAL LABOR RIGHTS FORUM
1634 I St., NW, Suite 1000
Washington, DC 20006
(202) 347-4100
ANGELA B. CORNELL
CORNELL LABOR LAW CLINIC
Cornell University
Ithaca, NY 14853
(607) 255-7497

